                      .-               . - -
                                                    NATIONAL SCIENCE FOUNiiATION
             &




                                                        4201 WILSON BOULEVARD
                                                       ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



     MEMORANDUM


 _     -     ------.-------p-.--.-..                                            _~-   -
     DATE:                              January 29, 1996




-
                                                                      &
     TO:                                I95080030

     PROM:                                            Special Agent

     RE:                                Allegation that Dr. 0               submitted false information to NSF in
                                        order to obtain follow-up finding for NSF grant


     On August 28, 1995, our office received an anonymous letter alleging that Dr.-
                  in order to receive follow-up finding for NSF grant                   4, had
     requested his co-Principle Investigators (co-PIS) sign a document stating that they had
     performed work on the grant through                         . According to the anonymous
     letter, the co-PIS had no hrther involvement in the project after

     A review of NSF grant files showed that-the              proposal for follow-up finding
     was not granted. In addition, we verified that payments budgeted for the co-PIS'
     institutions were made during the duration of the grant.

     Because we found no financial improprieties a n d w a s not awarded any follow-up
     hnding, the allegation warrants no firther investigation at this time. This case is closed.
